No. 20-6310

In the Supreme Court of the United States
DEAN PHILLIP CARTER, Petitioner,
v.
RON BROOMFIELD, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 7,997 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: January 13, 2021
Respectfully submitted,
XAVIER BECERRA
Attorney General of California
s/ Annie Featherman Fraser
ANNIE FEATHERMAN FRASER
Deputy Attorney General
Counsel of Record
Counsel for Respondent

